   Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL


 THE CENTERS FOR DISEASE CONTROL
    AND PREVENTION GENERALLY
ACHIEVED ITS MAIN GOALS RELATED TO
  CERTAIN HIV/AIDS PREVENTION,
  TREATMENT, AND CARE ACTIVITIES
UNDER THE PARTNERSHIP FRAMEWORK
            IN ETHIOPIA

     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                      Gloria L. Jarmon
                                                   Deputy Inspector General
                                                      for Audit Services

                                                         October 2014
                                                         A-04-13-04011
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 In Ethiopia, the Centers for Disease Control and Prevention generally achieved its main
 goals related to certain HIV/AIDS prevention, treatment, and care activities under the
 Partnership Framework and collaborated with the United States Agency for International
 Development to reduce PEPFAR redundancies.

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs, including PEPFAR,
implemented under the Act. To meet this requirement, HHS OIG has conducted a series of
audits of Centers for Disease Control and Prevention (CDC) offices and organizations receiving
PEPFAR funds from CDC. We selected CDC’s office in Addis Ababa, Ethiopia, for review.

The objectives of our review were to determine whether CDC (1) achieved its main goals related
to certain HIV/AIDS prevention, treatment, and care activities under the Partnership Framework
in Ethiopia and (2) collaborated with the United States Agency for International Development
(USAID) to reduce duplication of effort for PEPFAR activities (PEPFAR redundancies) in
Ethiopia.

BACKGROUND

For fiscal year (FY) 2012, CDC provided about $89 million for HIV/AIDS prevention,
treatment, and care activities in Ethiopia through cooperative agreements with government
agencies and for-profit and nonprofit organizations (grantees). CDC funded these activities to
help achieve its goals established under the Partnership Framework. The Partnership Framework
is a 5-year plan responding to the HIV/AIDS epidemic and is a collaboration between the U.S.
Government and the governments of countries receiving PEPFAR funds. The Department of
State, Office of the Global AIDS Coordinator (OGAC), leads the process for the U.S.
Government.

The Partnership Framework outlines and describes the mutual goals of the countries to promote a
national response to HIV/AIDS. The Partnership Framework with Ethiopia includes four broad
goals, with associated objectives to further describe the priority areas within each goal.

The Partnership Framework goals to be reached by 2014 in Ethiopia included:

        1. reducing the national HIV incidence by 50 percent;


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   i
        2. reducing morbidity and mortality and improving the quality of life for people living
           with HIV by expanding access to quality care, treatment, and support;

        3. having functional health systems necessary for universal access; and

        4. having a multisectoral response in place to prevent the spread of HIV and mitigate its
           impacts.

CDC does not report on performance measures for Goal 4, some of which are qualitative and
cannot be measured by a quantitative indicator. However, CDC and its grantees contribute to
Goal 4 through various activities reported in Goals 1 through 3.

Each year, CDC works with grantees to develop a country operational plan (COP) that sets
targets that ensure accountability and progress toward goals. Grantee targets, which undergo
multiple levels of review and are submitted to OGAC by the PEPFAR Coordinator for Ethiopia,
are designed to be specific, measurable, and collectively contribute to meeting the Partnership
Framework goals. OGAC requires that CDC report its progress annually for selected PEPFAR
activities in an Annual Program Results report. The grantees provide their performance measure
results to CDC using a grantee results template. Success in meeting Partnership Framework
goals depends on whether performance measure targets were met. OGAC considers a target to
have been met when a grantee reaches 75 percent of its goal.

WHAT WE FOUND

CDC generally achieved its main goals related to certain HIV/AIDS prevention, treatment, and
care activities under the Partnership Framework and collaborated with USAID to reduce
PEPFAR redundancies in Ethiopia.

Achieving Partnership Framework Goals

On the basis of the results of our judgmental sample review of 55 performance measures at 8
grantees, CDC exceeded the 75-percent minimum threshold established by OGAC for goals 1
and 2 but did not reach the threshold for goal 3.

CDC did not achieve all of its main goals because:

    •   the COP included performance measures for laboratories that were pass/fail and did not
        recognize incremental progress toward international accreditation,

    •   the COP included some performance measures with targets set above realistic levels,

    •   grantees experienced problems that postponed or delayed planned progress or resulted in
        partial reporting, and

    •   CDC could not make updates or corrections to OGAC’s Foreign Assistance Coordination
        and Tracking System (FACTS Info).

Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   ii
When CDC’s grantees achieve their goals, it allows CDC and the country to meet their
Partnership Framework goals. When grantees do not achieve their goals, it can negatively affect
planning for the COP and ultimately PEPFAR funding (i.e., prevention, treatment, and care
could be over- or underfunded). As a result, the program may not progress as rapidly toward the
reduction of HIV/AIDS.

Collaboration To Reduce PEPFAR Redundancies

Additionally, CDC effectively collaborated with USAID to reduce PEPFAR redundancies in
Ethiopia by separating responsibilities: USAID would focus on community and most at-risk
population prevention activities, and CDC would focus on facility-based prevention activities
including biomedical and blood safety programs, as well as treatment and care programs.

In addition to the separation of focus areas, the FY 2012 COP process included multiple levels of
review to prevent duplication by activity and geographic area.

WHAT WE RECOMMEND

We recommend that CDC:

    •   implement a system to recognize incremental progress toward laboratory accreditation,

    •   work with OGAC to improve target setting for performance measures,

    •   work with the grantees to overcome obstacles to meet the COP’s performance measures,
        and

    •   work with OGAC to allow for updates and corrections to FACTS Info.

CDC COMMENTS

In comments on our draft report, CDC officials concurred with our recommendations and
described corrective actions they had taken or planned to take.




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objectives ......................................................................................................................... 1

          Background ....................................................................................................................... 1
                Centers for Disease Control and Prevention ......................................................... 1
                Partnership Framework ......................................................................................... 2
                Country Operational Plan ..................................................................................... 3
                Targets for Performance Measures ....................................................................... 3
                Annual Program Results Report ........................................................................... 3

          How We Conducted This Review..................................................................................... 4

FINDINGS             ............................................................................................................................... 4

          CDC Generally Achieved Partnership Framework Goals But Encountered Challenges . 5

          CDC Effectively Collaborated With USAID .................................................................... 7

RECOMMENDATIONS .............................................................................................................. 8

CDC COMMENTS ...................................................................................................................... 8

APPENDIXES

          A: Related Office of Inspector General Reports .............................................................. 9

          B: Audit Scope and Methodology.................................................................................. 11

          C: Federal Requirements and Guidance ........................................................................ 13

          D: CDC Comments ........................................................................................................ 14




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)                                                iv
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs, including PEPFAR,
implemented under the Act. To meet this requirement, HHS OIG has conducted a series of
audits of Centers for Disease Control and Prevention (CDC) offices and organizations receiving
PEPFAR funds from CDC. 1 We selected CDC’s office in Addis Ababa, Ethiopia, for review.

OBJECTIVES

Our objectives were to determine whether CDC (1) achieved its main goals related to certain
HIV/AIDS prevention, treatment, and care activities under the Partnership Framework in
Ethiopia and (2) collaborated with the United States Agency for International Development
(USAID) to reduce duplication of effort for PEPFAR activities (PEPFAR redundancies) in
Ethiopia.

BACKGROUND

Centers for Disease Control and Prevention

The Act gives CDC a leadership role in several key areas of research and evaluation in
implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other in-country partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year (FY) 2012, CDC provided about $89 million for
HIV/AIDS prevention, treatment, and care activities in Ethiopia.

CDC awarded these funds through cooperative agreements with government agencies and for-
profit and nonprofit organizations (grantees). It uses cooperative agreements in lieu of grants
when it anticipates the Federal Government’s substantial involvement with grantees in
accomplishing the objectives of the agreements. The laws and regulations that apply to Federal
grants also apply to cooperative agreements.
1
    Appendix A contains a list of related OIG reports.


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   1
Partnership Framework

CDC funds HIV/AIDS prevention, treatment, and care activities to help achieve its goals
established under the Partnership Framework. The Partnership Framework is a 5-year plan
responding to the HIV/AIDS epidemic and is a collaboration between the U.S. Government and
the governments of countries receiving PEPFAR funds. The Department of State, Office of the
Global AIDS Coordinator (OGAC), leads the process for the U.S. Government and has primary
responsibility for the oversight and coordination of all PEPFAR activities.

The Partnership Framework outlines and describes the mutual goals of the countries to promote
the national response to HIV/AIDS. The Partnership Framework with Ethiopia includes four
broad goals, with associated objectives to further describe the priority areas within each goal.

The Partnership Framework goals to be reached by 2014 in Ethiopia 2 included:

           1. reducing the national HIV incidence by 50 percent;

           2. reducing morbidity and mortality and improving the quality of life for people living
              with HIV by expanding access to quality care, treatment and support;

           3. having functional health systems necessary for universal access; and

           4. having a multisectoral response 3 in place to prevent the spread of HIV and mitigate
              its impacts.

To help ensure that the Partnership Framework goals and related objectives are achieved,
Goals 1 through 4 are assigned performance measures 4 to demonstrate progress in the fight
against HIV/AIDS. These performance measures are designed to promote responsible program
monitoring across and within PEPFAR-funded technical areas. 5 CDC does not report on
performance measures for Goal 4, some of which are qualitative and cannot be measured by a
quantitative indicator. However, CDC and its grantees contribute to Goal 4 through various
activities reported in Goals 1 through 3.




2
    The goals are to be achieved over the life of the 5-year plan.
3
 A multisectoral response is one that involves many types of organizations, such as governmental, community-
based, nongovernmental, private sector, and academic.
4
 Throughout this report, we use the term “performance measure” to be equivalent to the term “indicator” that is
used in the PEPFAR Next Generation Indicators Reference Guide and the FY 2012 Annual Program Results
Guidance.
5
 The technical areas included HIV/AIDS prevention, care, and treatment programs such as testing and counseling,
providing HIV medications immediately after exposure, prevention programs, clinical care, antiretroviral drug
services, and laboratory services.


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)         2
The PEPFAR Next Generation Indicators Reference Guide (the Guide) 6 from OGAC lists the
performance measures that, according to OGAC, meet the minimum needs of the PEPFAR
program to demonstrate progress in the fight against HIV/AIDS. The Guide suggests the tools
that grantees should use to gather the data for performance measures, as well as the method of
measurement to determine the results for each performance measure.

Country Operational Plan

Each year, all U.S. Government agencies working to fight HIV/AIDS in partner countries come
together as one team under the leadership of the respective U.S. Ambassadors to develop work
plans called the Country Operational Plan (COP). 7 Agencies use the COP to document U.S.
Government annual investments and anticipated results in HIV/AIDS prevention, treatment, and
care. An important part of the COP process is the interagency country planning process that
includes grantee performance reviews, grantee consultation, analysis, and target setting.

Targets for Performance Measures

According to CDC, for the annual COP development, it works with grantees to set targets that
ensure accountability and progress toward goals established by OGAC. The targets are designed
to be specific, be measurable, and collectively contribute to meeting the Partnership Framework
goals. Next, an in-country interagency Technical Working Group 8 reviews the targets and
combines them to establish CDC’s target. The PEPFAR Coordinator for Ethiopia adds the CDC
target to the other U.S. Government agencies’ targets to produce the PEPFAR Ethiopia target.
Finally, the PEPFAR Coordinator for Ethiopia reviews the combined targets at the U.S.
Government interagency level and submits them to OGAC. OGAC may revise the targets if it
disagrees with the assumptions behind the targets.

Annual Program Results Report

To help meet its annual reporting requirements under the Act and to monitor the country’s
progress in the fight against HIV/AIDS, OGAC requires that all U.S. Government agencies
report their progress annually for selected PEPFAR activities in an Annual Program Results
report. The grantees provide their performance measure results to CDC using a grantee results
template. OGAC considers a target to have been achieved when a grantee reaches 75 percent of
its goal.
6
 The version that applied to our audit period was the President’s Emergency Plan for AIDS Relief Next Generation
Indicators Reference Guide, Version, 1.1, August 2009.
7
 For FY 2012, the following countries were required to complete a COP: Angola, Botswana, Burundi, Cambodia,
Cameroon, China, Côte d‘Ivoire, Democratic Republic of the Congo, Dominican Republic, Ethiopia, Ghana,
Guyana, Haiti, India, Indonesia, Kenya, Lesotho, Malawi, Mozambique, Namibia, Nigeria, Russia, Rwanda, South
Africa, South Sudan, Swaziland, Tanzania, Thailand, Uganda, Ukraine, Vietnam, Zambia, and Zimbabwe. Regional
Operational Plans (ROP) were required from the Caribbean, Central Asia, and Central America. Smaller PEPFAR
programs that did not complete a COP/ROP accounted for PEPFAR resources through the preparation of a Foreign
Assistance Operational Plan.
8
 The Technical Working Group consists of representatives from participating U.S. Government agencies, mainly
CDC and USAID.


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)      3
In addition to the Annual Program Results reports, Federal regulations and notices of award
require all grantees to submit a separate annual progress report to CDC for each grant or
cooperative agreement. The annual progress reports should contain a comparison of actual
accomplishments to grant or cooperative agreement objectives for the period (45 CFR
§ 74.51(d)(1) and 45 CFR § 92.40(b)(2)(i)).

HOW WE CONDUCTED THIS REVIEW

CDC funded 41 grantees and reported results for 25 direct 9 performance measures in Ethiopia for
FY 2012. Of these 41 grantees, we judgmentally selected 8 for review, including 4 that received
funding from both CDC and USAID. These 8 grantees represented 21 of the 25 direct
performance measures, or 84 percent for CDC in Ethiopia. We reviewed grantee results for a
cumulative total of 55 performance measures. 10 We compared the performance measure results
that the grantees reported to CDC in the grantee results template with the results that CDC
reported to OGAC in the Annual Program Results report. Also, we reviewed supporting
documentation from each of the eight grantees for the performance measure results they reported
to CDC. We compared the progress reported in the Annual Program Results report with the
accomplishments reported in each grantee’s annual progress report. In addition to work
performed at the eight grantees, we visited three site locations to observe facilities, processes,
and activities that grantees used to produce performance measure results.

We interviewed and conducted meetings with CDC Ethiopia officials, the State Department
PEPFAR Coordinator, and USAID OIG auditors to discuss possible areas of duplication in
PEPFAR activities between CDC and USAID and steps taken to prevent duplication.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.

                                                   FINDINGS

CDC generally achieved its main goals related to certain HIV/AIDS prevention, treatment, and
care activities under the Partnership Framework and collaborated with USAID to reduce
PEPFAR redundancies in Ethiopia. On the basis of the results of our sample review of 55



9
 There are two kinds of performance measures: national and direct. This report examines direct performance
measures. National performance measures are used to monitor all contributions and investments. Direct
performance measures are used to specifically monitor U. S. Government agencies’ PEPFAR program investments.
10
  Each of the 8 grantees reported results for at least 1 performance measure, up to as many as 21 for a cumulative
total of 55. Of the 55 performance measure results reviewed, annual targets were set for 46.


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)            4
performance measures at 8 grantees, CDC exceeded the 75-percent minimum threshold
established by OGAC for goals 1 and 2 but did not reach the threshold for goal 3.

CDC did not achieve all of its main goals because:

     •   the COP included performance measures for laboratories that were strictly pass/fail and
         did not recognize incremental progress toward international accreditation,

     •   the COP included some performance measure targets that were set above realistic levels,

     •   grantees experienced problems that postponed or delayed planned progress or resulted in
         partial reporting, and

     •   CDC could not update or correct OGAC’s Foreign Assistance Coordination and Tracking
         System (FACTS Info). 11

Additionally, CDC effectively collaborated with USAID to reduce PEPFAR redundancies by
separating responsibilities. USAID focused on community and most at-risk population
prevention activities, and CDC focused on facility-based prevention activities including
biomedical and blood safety programs, as well as treatment and care programs.

In addition to the separation of focus areas, the FY 2012 COP process included multiple levels of
review to prevent duplication by activity or geographic area.

CDC GENERALLY ACHIEVED PARTNERSHIP FRAMEWORK GOALS
BUT ENCOUNTERED CHALLENGES

The FY 2012 Annual Program Results Guidance from OGAC considered a performance measure
successfully achieved when it reached 75 percent of the FY 2012 target.

In Ethiopia, CDC generally achieved its main goals related to certain HIV/AIDS prevention,
treatment, and care activities under the Partnership Framework but encountered challenges.

Our judgmental sample review of 55 performance measures at 8 of CDC’s grantees showed that
the grantees achieved the majority of their Partnership Framework goals. Together, these
grantees exceeded the 75-percent minimum threshold established by OGAC for two of CDC’s
three main goals. (See the table below.)




11
  All PEPFAR U.S. Government agencies were required to submit their FY 2012 performance measure data using
the FACTS Info database. This software system is the primary source for tracking and reporting foreign assistance
data and is jointly operated by the State Department and USAID. OGAC uses the FACTS Info database to generate
the Annual Program Results report.


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)       5
                Table: Performance Measure Results by Partnership Framework Goal

                                         Met Targets         Did Not Meet Targets




                                                                                                     82%
                          GOAL 1
     Reduce the national HIV incidence by 50% by 2014                    18%



                            GOAL 2
        Reduce morbidity and mortality and improve the                                               81%
                quality of life for people living                        19%
         with HIV by expanding access to quality care,
                treatment, and support by 2014



                             GOAL 3                                                        60%
           Having functional health systems necessary for                           40%
                     universal access by 2014


                                                            0%                  50%                   100%
                                                              PERFORMANCE MEASURE RESULTS



CDC did not achieve all of its main goals for the following reasons:

       •    The COP included performance measures for laboratories that were strictly pass/fail and
            did not recognize incremental progress toward international accreditation. 12 During our
            audit period, grantees reported progress for some laboratories that were evaluated using a
            five-star accreditation system. Although some of the laboratories had achieved an
            international accreditation level of two or three stars, they were not qualified to be
            reported as “pass” on the Annual Program Results report to OGAC.

       •    The COP included some performance measure targets that were set above realistic levels.
            For example, some performance measure targets were based on the country’s national
            targets, which were set too high because the number of people diagnosed as HIV positive
            had decreased.




12
  Grantees reported zero for performance measure H1.2.D, “Percent of testing facilities (laboratories) that are
accredited according to national or international standards.”


Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)         6
    •   Grantees experienced problems that postponed or delayed planned progress or resulted in
        partial reporting. For example, postponed training, student trainee dropouts, and delayed
        graduation dates caused some grantees not to reach their target goals.

    •   CDC could not make updates or corrections to OGAC’s FACTS Info database. That is, if
        CDC reported a low level of progress in its Annual Program Results report to OGAC but
        later discovered that documentation actually supported a higher level, it could not update
        the original report. For example, 1 grantee erroneously reported to CDC for the Annual
        Program Results report that 47 health care workers graduated from training, but
        documentation supported 69 as having graduated. The grantee made CDC aware of this
        discrepancy in a later progress report, but the FACTS Info database would not allow
        CDC to update its numbers once initially reported.

When CDC’s grantees achieve their goals, it allows CDC and the respective country to meet
their Partnership Framework goals. When grantees do not achieve their goals, it can negatively
affect planning for the COP and ultimately PEPFAR funding (i.e., prevention, treatment, and
care could be over- or underfunded). As a result, the program may not progress as rapidly
toward the reduction of HIV/AIDS.

CDC EFFECTIVELY COLLABORATED WITH USAID

CDC effectively collaborated with USAID to reduce PEPFAR redundancies in Ethiopia by
separating areas on which each agency focused. USAID focused on the community and most at-
risk population disease prevention activities, and CDC focused on facility-based disease
prevention activities, including biomedical and blood safety programs, as well as the treatment
and care programs.

In addition to the separation of focus areas, the development of the COP included multiple levels
of review to prevent redundancies by activity or geographic area, including reviews by:

    •   the in-country technical working group, which included representatives from all U.S.
        Government agencies;

    •   a collaborative team made up of co-chairs from the technical working group, the
        Ambassador, and other representatives;

    •   an executive council chaired by the Ambassador; and

    •   a final review by all agencies.

As a result of this collaboration to eliminate PEPFAR program redundancies in Ethiopia, CDC
discontinued five prevention cooperative agreements and USAID discontinued one care and
treatment cooperative agreement in FY 2012.




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   7
                                        RECOMMENDATIONS

We recommend that CDC:

    •   implement a system to recognize incremental progress toward laboratory accreditation,

    •   work with OGAC to improve target setting for performance measures,

    •   work with the grantees to overcome obstacles to meet the COP’s performance measures,
        and

    •   work with OGAC to allow for updates and corrections to FACTS Info.

CDC COMMENTS

In comments on our draft report, CDC officials concurred with our recommendations and
described corrective actions they had taken or planned to take.

CDC’s comments are included as Appendix D. However, we did not include the attachments
because they were too voluminous.




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   8
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

  AUDITS OF THE PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF FUNDS

                           Report Title                              Report Number          Date Issued

   The Federal Democratic Republic of Ethiopia, Ministry             A-04-13-04015             9/2014
   of Health, Did Not Always Manage President’s
   Emergency Plan for AIDS Relief Funds or Meet
   Program Goals in Accordance With Award
   Requirements
   The Republic of Zambia, Ministry of Health, Did Not               A-04-13-04004             6/2014
   Always Manage the President's Emergency Plan for
   AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The University of Zambia School of Medicine Did Not               A-04-13-04010             4/2014
   Always Manage President’s Emergency Plan for AIDS
   Relief Funds or Meet Program Goals in Accordance
   With Award Requirements

   The University Teaching Hospital Generally Managed                A-04-13-04005             3/2014
   the President’s Emergency Plan for AIDS Relief Funds
   and Met Program Goals in Accordance With Award
   Requirements

   The South African National Department of Health Did               A-05-12-00022             8/2013
   Not Always Manage President's Emergency Plan for
   AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements

   Aurum Institute for Health Research Did Not Always                A-05-12-00021             8/2013
   Manage President's Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements

   National Health Laboratory Service Did Not Always                 A-05-12-00024             8/2013
   Manage President's Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements

   The Southern African Catholic Bishops' Conference                 A-05-12-00023             7/2013
   AIDS Office Generally Managed President's
   Emergency Plan for AIDS Relief Funds and Met
   Program Goals in Accordance With Award
   Requirements




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   9
   The Vietnam Administration for HIV/AIDS Control Did               A-06-11-00057             6/2013
   Not Always Manage the President's Emergency Plan
   for AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements

   The Centers for Disease Control and Prevention’s                  A-04-12-04023             4/2013
   Vietnam Office Generally Monitored Recipients’ Use of
   the President’s Emergency Plan for AIDS Relief Funds

   Potentia Namibia Recruitment Consultancy Generally                A-06-11-00056             4/2013
   Managed the President’s Emergency Plan for AIDS
   Relief Funds and Met Program Goals in Accordance
   With Award Requirements

   The Centers for Disease Control and Prevention’s                  A-04-12-04022             2/2013
   South Africa Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds

   The Republic of Namibia Ministry of Health and Social             A-04-12-04019             1/2013
   Services, Did Not Always Manage the President’s
   Emergency Plan for AIDS Relief Funds or Meet
   Program Goals in Accordance With Award
   Requirements

   The Centers for Disease Control and Prevention’s                  A-04-12-04020             11/2012
   Namibia Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds

   Review of the Centers for Disease Control and                     A-04-10-04006             6/2011
   Prevention’s Oversight of the President’s Emergency
   Plan for AIDS Relief Funds for Fiscal Years 2007
   Through 2009




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   10
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the fiscal year ended September 30, 2012. For FY 2012, CDC funded 41
grantees and reported results for 25 direct performance measures in Ethiopia. Of these 41
grantees, we judgmentally selected 8 for review, including 4 that received funding from both
CDC and USAID. These 8 grantees represented 21 of the 25 direct performance measures, or
84 percent for CDC in Ethiopia. We reviewed grantee results for a cumulative total of 55
performance measures.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at CDC’s office in Addis Ababa, Ethiopia, during August 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed relevant Federal laws and regulations, OGAC guidance on performance
        measures, annual program results and the COP, CDC monitoring and oversight guidance,
        the Partnership Framework between the U.S. and Ethiopian Governments, the FY 2012
        COP report, and the FY 2012 CDC Annual Program Results Data Analysis report;

    •   judgmentally selected 8 grantees from the FY 2012 CDC Annual Program Results report
        with a cumulative total of 55 grantee performance measure indicators for a total of 21
        direct CDC performance measures (4 of the 8 grantees received funding from both CDC
        and USAID);

    •   interviewed and conducted meetings with CDC Ethiopia officials, the State Department
        PEPFAR Coordinator, and USAID OIG auditors to discuss possible areas of duplication
        in PEPFAR activities between CDC and USAID and steps taken to prevent duplication;

    •   interviewed staff from four grantees visited that received PEPFAR funding from both
        CDC and USAID regarding potential PEPFAR redundancies.

    •   interviewed and conducted meetings with the eight selected grantees to determine their
        processes and procedures related to reporting the OGAC performance measure indicators
        to CDC for the COP and CDC’s Annual Program Results Report;

    •   held discussions with the four grantees receiving PEPFAR funding from both CDC and
        USAID regarding possible PEPFAR redundancies between CDC and USAID;

    •   performed site visits at three locations to observe facilities, processes, and activities used
        by grantees to produce performance measure results;




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   11
    •   compared the performance measure results that the grantees reported to CDC using the
        grantee results template with the results that CDC reported to OGAC in an Annual
        Program Results report;

    •   compared the accomplishments described in each grantee’s annual progress report to
        CDC’s Annual Program Results report;

    •   reviewed supporting documentation from the selected grantees for the 55 performance
        measures they reported to CDC;

    •   grouped the performance measure results by the partnership framework goals;

    •   identified performance measures that met the 75-percent minimum threshold established
        by OGAC for CDC’s main goals; and

    •   discussed the results of our review with CDC Ethiopia officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   12
               APPENDIX C: FEDERAL REQUIREMENTS AND GUIDANCE

45 CFR § 74.51(d)(1)-(3)

        Performance reports shall generally contain, for each award, brief information on
        each of the following: (1) A comparison of actual accomplishments with the
        goals and objectives established for the period, the findings of the investigator, or
        both. Whenever appropriate and the output of programs or projects can be readily
        quantified, such quantitative data should be related to cost data for computation of
        unit costs. (2) Reasons why established goals were not met, if appropriate.
        (3) Other pertinent information including, when appropriate, analysis and
        explanation of cost overruns or high unit costs.

45 CFR § 92.40(b)(2)(i)

        Performance reports will contain, for each grant, brief information on the
        following: A comparison of actual accomplishments to the objectives established
        for the period.

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF NEXT GENERATION
INDICATORS REFERENCE GUIDE, VERSION, 1.1, AUGUST 2009

The PEPFAR Next Generation Indicators Reference guide from OGAC lists the performance
measures that meet the minimum needs of the PEPFAR program to demonstrate progress in the
fight against HIV/AIDS. The performance measures promote responsible program monitoring
across and within PEPFAR-funded technical areas. This guidance suggests the tools that
grantees should use to gather the data for the performance measures, as well as, the method of
measurement to determine the results for each performance measure.

FY 2012 ANNUAL PROGRAM RESULTS GUIDANCE

        For the HHS Implementing Mechanism narratives for each of the indicators, please
        briefly describe:

        •   Reasons for underachievement (<75% of FY 2012 target) or overachievement
            (>125% of FY 2012 target), with reference to relevant programmatic and
            Monitoring and Evaluation challenges and successes that explain the
            under/overachievement.




Audit of the Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04011)   13
                             APPENDIX D: CDC COMMENT S

      U.S. DEPAinMENT OF HEAlTH AND HUMAN SERVICES 	                                     Public Health Service


                                                                                         Centers for Disease Control
                                                                                           and Prevention (CDC)
                                                                                         Atlan ta GA 30333




TO:             Deputy Inspector General for Audit Services
                U.S. Department ofHealth and Human Services

FROM:           Director, Centers for Disease Control and Prevention

DATE:           September 8, 2014

SUBJECT:        Office oflnspector General's Draft Report: "The Centers for Disease Control and
                Prevention Generally Achieved Its Main Goals Related to Certain HIVI AIDS
                Prevention, Treatment, and Care Activities Under the Partnersh ip Framework in
                Ethiopia" (A-04-13-040 11)


The Centers for Disease Control and Prevention (CDC) appreciates the opportunity to review the
subject draft report.

The Office of Inspector General (OIG) found that CD C generally achieved its programmatic
goals and provided four recommend ations, in which CDC has taken immediate steps to correct
or had already initiated corrective act ion prior to the review. CDC's response to the
recommendations is detailed below.

1. 	 OIG Recommendation: The OIG recommends that CDC implement a system to recognize
   incremental progress towards laboratory accreditation.

   CDC Response: CDC concurs with this recommendation. Corrective action was not needed
   given that the implementation of the World Health Organization African Regional Office's
   step-wise laboratory accreditation program was underway, which recognizes incremental
   achievement. At the time of the OIG visit, the third party assessment mechanism with the
   African Society for Laboratory Medicine (ASLM) was not yet in place to formally recognize
   and document interim achievement. This external assessment body is required by the U.S.
   President's Emergency Plan for AIDS Relief(PEPFAR) and has now been in place since July
   201 3.

2. 	 OIG Recommendation: The OIG recommends that CDC work with the Office of the Global
     AIDS Coord inator (OGAC) to improve target setting for performance measures.

   CDC Response: CDC concurs with this recommendation, and wi ll engage with OGAC on
   improving target setting for Ethiopia . CDC will also continue to use the best available
   epidemiologic and programmatic data with trend data (when available) to inform and
   improve the target setting process.



Audit ofthe Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A-04-13-04 011)   14
3. 	 OIG Recommendation: The OIG recommends that CDC work with the grantees to
     overcome obstacles to meet the country operational plan's performance measures.

    CDC Response: CDC concurs with this recommendation, and has taken aggressive
    conective action.

    Partner Support Teams (PSTs) have been established to work with each grantee to monitor
    and maximize programmatic performance and fund utilization, as well as provide technical
    assistance to address challenges or obstacles. PST members include grants management staff
    and technical staff for each of the progranm1atic areas in which the grantee works. In2013,
    the roles of PST members were redefined to increase emphasis on problem resolution and
    follow up. This change has greatly enhanced support to grantees to ensure forward
    momentum, and it has been formally incorporated into CDC-Ethiopia's standard operating
    procedures for Cooperative Agreement Management, included herein as Annex 1.

    A second action taken is the implementation ofthe CDC Site Monitoring Strategy (SMS),
    which began in July 2012. This strategy requires onsite performance assessments for all CDC
    grantees and provides a feedback mechanism to address any identified underperformance or
    weaknesses. The SMS includes standardized data collection tools for all technical aspects of
    the program and a scorecard for each SMS visit, with follow-up actions as needed. From July
    2012 through June 2014, a total of287 SMS assessments were completed, fmther
    intensifying CDC's grantee oversight and monitoring activities.

4. 	 OIG Recommendation: The OIG recommends that CDC work with OGAC to allow for
     updates and corrections to the Foreign Assistance Coordination and Tracking System
     (FACTS Info).

    CDC Response: CDC-Ethiopia concurs with this recommendation and will communicate to
    OGAC the need to update or correct achievements already reported in FACTS Info.

CDC is committed to the highest levels of programmatic and fiscal accountability and will
continue to improve its oversight and performance through intensive internal program
monitoring and evaluation. In addition, CDC is providing key supp01t to OGAC in the
implementation of a new PEPF AR-wide initiative to increase program accountability,
transparency, and impact tluough the Site Improvement through Monitoring System (SIMS) and
routine results-linked expenditure analysis.

Thank you for your review of this critical health issue. Please direct any questions regarding
these comments to Priscilla Patin, CDC's OIG Liaison, at (404) 639-7094 or iggao@cdc.gov.


                                                  ~~
                                                  Thomas R. Frieden, MD, MPH
                                                  Director, CDC




                                                                                                             2

 Audit ofthe Centers for Disease Control and Prevention Partnership Framework in Ethiopia (A -04-13-04011)   15
